No. ________
In The

WI-LAN, INC.; WI-LAN LABS, INC.;
AND WI-LAN USA, INC.,
Petitioners,
v.
DREW HIRSHFELD, ACTING UNDER SECRETARY OF COMMERCE FOR INTELLECTUAL
PROPERTY AND DIRECTOR OF THE UNITED STATES PATENT AND TRADEMARK OFFICE,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Petition for a
Writ of Certiorari in the above-referenced case contains 3,105 words, excluding the
parts of the petition exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on March 8, 2021.

Douglas R. Wilson
ARMOND WILSON LLP
895 Dove St. Suite 300
Newport Beach, CA 92660
(949) 932-0778
doug.wilson@armondwilson.com
Counsel for Petitioners

